                         UNITED STATES DEPARTMENT OF EDUCATION 

                                           OFFICE OF INSPECTOR GENERAL 

                                     1999 BRYAN STREET. HARWOOD CENTER. SUITE 2630 

                                                DALLAS . TEXAS 75201·6817 

                                          PHONE, (214) 880-3031 FAX , (214) 880-2492 




                                                         MAY 30 2003
MEMORANDUM

TO 	              Eugene Hickok
                  Acting Assistant Secretary for Elementary and Secondary Education

FROM 	            Sheni L. Demmel               _ ~c/. ~
                  Regional Inspector General for Audit

SUBJECT: 	 FINAL AUDIT REPORT
           California Departmellt of Education's Compliallce with the Priority for
           Services Requirements ofthe Migrallt Educatioll Program.
                   Control Number ED-OIG/A06-C0033

Attached is our subject report presenting our findings and recommendations resulting from our
audit of the California Department of Education's Migrant Education Program.

In accordance with the Department's Audit Resolution Directive, the Office of Elementary and
Secondary Education has been designated as the action office responsible for the resolution of the
findings and recommendations in this report.

Please refer to the above audit control number in all correspondence relating to this report. If you
have any questions or wish to discuss the contents of this report, please contact me at 214-880­
3031.


Attachment

cc:      Delores Warner, Audit Liaison Officer, OESE




       Ollr missioll is to promote the efficiency, effectiveness, and illtegrity a/the Department's programs and operations
                        UNITED STATES DEPARTMENT OF EDUCA TION
                                         OFFICE OF INSPECTOR GENERAL
                                   1999 BRYAN STREET, HARWOOD CENTER. SUITE 2630
                                                DALLAS. TEXAS 75201 ·6817 

                                         PHONE, (2 14) 880·303 1 FAX , (214) 880·2492 



                                                    MAY 30 2003

Mr. Jack O'Connell
State Superintendent of Public In struction
California Department of Education
1430 N Street
Sacramento, California 95814

Dear Superintendent O'Connell:

This Final Audit Report (Control Number ED-OIGI A06-C0033) presents the results of our
audit of the Migrant Education Program at the California Depa11ment of Education (California).
The objectives of our audit were to determine whether Califomia and its sub-grantees (I)
established and implemented appropriate procedures to identify and target services to migratory
children who are failing or most at risk of failing to meet state standards and whose education
has been interrupted during the regular school year, and (2) estab li shed procedures to rep0l1 to
the Depa11ment the number of "Priority for Service" migratory children in Califomia. Our audit
focused on the period July 1,2000, through July 31, 2002.

A draft of this report was provided to the Califomia Department of Education. In its response,
Califomia did not completel y agree with our findings, but generally agreed with our
recommendations. California's comments are summarized in the section that follows the
Recommendations. A copy of the complete response is enclosed with this rep0l1 .


                                                 BACKGROUND 



The Elementary and Secondary Education Act (ESEA) of 1965, as amended, authorizes federal
funding of programs of education for migratory children. In fiscal year 2001, over $371.3
million was authOlized for the education of migratory children. California received
approximate ly $120.9 million in Migrant Education Program funds. A migratory child is a child
who is , or whose parent, spouse, or guardian is, a migratory agricultural worker, inc ludin g a
migratory dairy worker or a migratory fisher. The No Chi ld Left Behind Act of 200 I and the
Improving America's Schools Act of 1994 further specify that children who are failing, or most
at risk of failing , to meet the State's challenging content standards and challenging student
performance standards, and whose education has been interrupted during the regular school year
shall receive "Priority for Services." Priority for Services means students who meet both criteria
will receive Migrant Education Program funded services before services are provided to other
migratory children. Guidance from the Department provides that if "the state does not have
assessment data on a pm1icular migrant child (e.g., the child was not present in the district when
the assessment was administered), then the state might use other relevant information, like the



      Our mission is to promote the eJjicimcy. effectiveness, alld jlllegriry a/the Department's programs alld operatiolls
Mr. Jack O’Connell, Superintendent                                                     Page 2 of 6


degree to which the child is subject to multiple risk factors (e.g., being overage or behind grade
level, eligible for free/reduced price lunch, limited English proficient) to determine the child’s
need for services.” The Department also establishes that “the state, in collaboration with local
operating agencies, is free to determine what constitutes ‘educational interruption’ under Section
1304 (d).”

Table C-6 of the Consolidated State Performance Report, which is submitted to the Department’s
Office of Migrant Education for every award year, requires that States indicate the “count of
students served who have a priority for services under Section 1304 (d) of the ESEA (those
whose schooling has been interrupted and who are failing or [most] at risk of failing to meet state
standards).”

On November 26, 2002, the Department issued final regulations for the No Child Left Behind
Act of 2001 governing the Migrant Education Program to, among other changes, require that
each State Education Agency determine the effectiveness of its program, particularly for those
students who have Priority for Services. These regulations are in response to The President’s
Management Agenda for Fiscal Year 2002 and the Department of Education’s Blueprint For
Management Excellence released October 30, 2001. One of the expected long-term results in
The President’s Management Agenda is better control over resources used and accountability for
results by program managers. The Department’s Blueprint describes one of the Department’s
commitments to management improvement as achieving an “Accountability for Results” culture.
Through the Blueprint, the recipients of Department funds will be held responsible for their
performance in relation to the goals and objectives.


                                     AUDIT RESULTS


California did not comply with Section 1304(d) of the Elementary and Secondary Education Act
of 1965, as amended. Specifically, California did not establish and implement appropriate
procedures to identify and target Priority for Services to migratory children who are failing, or
most at risk of failing, to meet State standards, and whose education was interrupted during the
regular school year. As a result, the U.S. Department of Education has no assurance that
California used the $120.9 million in Migrant Education Program funds it received for Fiscal
Year 2001 for Priority for Services migratory children before providing services to other
migratory children; and, California was unable to report an accurate number of Priority for
Services migratory children served in the Consolidated State Performance Report to the
Department’s Office of Migrant Education.

California did not allocate migrant funds to its sub-grantees based on identified Priority for
Services migratory children to be served. Instead, California provided migrant education funds
to its sub-grantees based on several components: 1) number of A-1 enrollments (regular migrant
school year population); 2) migrant students who have moved within one year; 3) migrant
children age 3-4; 4) migrant children age 19 –21; 5) migrant students who are overage for their
grade; and 6) migrant students attending summer/intersession school.
Mr. Jack O’Connell, Superintendent 	                                                      Page 3 of 6


California overstated the number of Priority for Services migratory children in its Fiscal Year
2001 Consolidated State Performance Report because it also used these same components to
report migratory children served. California reported to the Department that there were 209,261
Priority for Service migratory students, or 81 percent of the total migratory student population in
California.

We visited three sub-grantees and found that none of the three had procedures in place to
properly identify and target migratory children for Priority for Services. One sub-grantee only
used the failing to meet state standards as criteria to identify Priority for Services migratory
students. Another used the failing to meet state standards or the interruption of education criteria
but did not use both criteria together as required to identify Priority for Service students. The
third sub-grantee did not identify Priority for Services migratory students and relied on the
individual school districts in the region to identify the Priority for Service students. This sub-
grantee did not monitor the school districts to ensure Priority for Services migratory children
were properly identified. The three sub-grantees received nearly $15.4 million for migrant
education.

We concluded that these conditions occurred because California (1) relied upon its sub-grantees’
assurances that they were properly identifying Priority for Services migratory children, and did
not perform independent monitoring of the sub-grantees to ensure services were provided; (2)
did not provide clear guidance to the sub-grantees as to the definition of “at risk of failing” State
standards and “whose education has been interrupted during the regular school year”; and (3) did
not require the schools, school districts, or sub-grantees to report the number of Priority for
Services migratory students for 2000 and 2001. We also determined that the sub-grantees did
not maintain the detailed information on the number of Priority for Services migratory children.


                                   RECOMMENDATIONS


We recommend that the Assistant Secretary for the Office of Elementary and Secondary
Education require California to:

1.1 	 Monitor sub-grantees to ensure funds are used for Priority for Services migratory children
      before funds are used for other migratory children.

1.2 	 Provide a clear definition to all sub-grantees of what constitutes “at risk of failing” State
      standards and “whose education has been interrupted during the regular school year.”

1.3 	 Establish procedures to identify and report to the Department the number of Priority for
      Services migratory children served in California schools.
Mr. Jack O’Connell, Superintendent                                                        Page 4 of 6



                CALIFORNIA COMMENTS TO THE DRAFT REPORT


California officials indicated that they did not completely agree with our findings, but generally
agreed with our recommendations. They stated that they (1) incorporated monitoring tests in
their 2003/2004 Coordinated Compliance Review Program to ensure Priority for Services
requirements are met; (2) will provide subgrantees another more accurate and detailed definition
of Priority for Services migratory children, consistent with the state’s interpretation; and (3) will
use the academic service data it currently receives from the regional offices to develop a
reporting process that identifies students meeting the federal criteria for Priority for Services.


                      OBJECTIVE, SCOPE, AND METHODOLOGY


The objectives of our audit were to determine whether California and its sub-grantees (1)
established and implemented appropriate procedures to identify and target services to migratory
children who are failing or most at risk of failing to meet state standards and whose education
has been interrupted during the regular school year, and (2) established procedures to report to
the Department the number of Priority for Services migratory children in California.

To accomplish our objectives, we:

          Reviewed California’s and its sub-grantees’ policies and procedures for providing
           services to migratory children.
          Interviewed California and sub-grantee officials regarding their procedures for
           providing Priority for Services to migratory children.
          Reviewed the California State Single Audit Report for 2001.
          Reviewed applicable laws, regulations, and other guidance.
          Reviewed the sub-grantees’ documentation regarding the Priority for Services
           provided to migratory children.
          Reviewed California’s and its sub-grantees’ decision-making process for allocating
           migrant education funds.

We obtained computer-processed data from California that we used for background information.
Because we did not use the data for projection or to make any determinations, we did not
perform reliability assessments on the data.

Our audit of California’s Migrant Education Program covered the period July 1, 2000, through
July 31, 2002. We performed fieldwork from September 9-12, 2002, at the State offices in
Sacramento, and at three sub-grantees’ offices from September 13-25, 2002. We selected one of
the largest sub-grantees in California at the request of the Office of Migrant Education. We
selected two other sub-grantees at our discretion. The sub-grantees visited were Region 2 Butte
Mr. Jack O’Connell, Superintendent                                                     Page 5 of 6


County, Yuba City, California; Region 22 Santa Maria Bonita School District; and Region 11
Pajaro Valley Unified School District. We held an exit conference with California officials on
November 19, 2002. Our work was performed in accordance with generally accepted
government auditing standards appropriate to the scope of the audit described above.


                   STATEMENT ON MANAGEMENT CONTROLS


As part of our review, we assessed the system of management controls, policies, procedures, and
practices applicable to California’s administration of the Priority for Services portion of the
Migrant Education Program. Our assessment was performed to determine whether California
had management controls established to ensure Priority for Services migratory children received
services before services were provided to other migratory children.

Because of inherent limitations, a study and evaluation made for the limited purpose described
above would not necessarily disclose all material weaknesses in the management controls. Our
assessment disclosed that California had neither developed and implemented procedures nor
established a monitoring system for sub-grantees to identify, target, and count migratory children
to be served first through the Migrant Education Program. As a result, we concluded that
California did not have sufficient management controls to ensure that sub-grantees complied
with the requirements of Section 1304(d) of the Elementary and Secondary Education Act of
1965, as amended. The AUDIT RESULTS section of the report provides details on our finding.


                             ADMINISTRATIVE MATTERS


If you have any additional comments or information that you believe may have a bearing on the
resolution of this audit, you should send them directly to the following U.S. Department of
Education official, who will consider them before taking final Departmental action on the audit:

                      Eugene Hickok, Acting Assistant Secretary
                      U.S. Department of Education
                      Office of Elementary and Secondary Education
                      400 Maryland Avenue, SW
                      Room 3W315, FB6 Building
                      Washington, D.C. 20202

Office of Management and Budget Circular A-50 directs Federal agencies to expedite the
resolution of audits by initiating timely action on the findings and recommendations contained
therein. Therefore, we request receipt of your comments within 30 days.

In accordance with the Freedom of Information Act (5 U.S.C. §552), reports issued by the Office
of Inspector General are available, if requested, to members of the press and general public to the
extent information contained therein is not subject to the exemptions in the Act.
Mr. Jack O'Connell, Superintendent                                                      Page 6 of6



If you have any questions or wish to discuss the contents of this report, please contact me at 214­
880-3031. Please refer to the control number in all correspondence related to this report.

                                                     Sincerely,



                                                     Sherri L. Demmel
                                                     Regional Inspector General
                                                      for Audit


Attachment
    CALIFORNIA
    DEPARTMENT
        OF                     JACK O'CONNELL
    EDUCATION                  State Superintendent of Public lnstruction   Attachment

I
:      I-no ;-..; Street       Phone, (916) 319-0800
                               Fa" (916) 319-0100
:     PO Bo\ q-l-l272      ,
!     Sacr.lmcnto, CA      !
!       <.)42H-2720        j




     May 6, 2003



     Ms. Sherri L. Demmel, Regional Inspector General for Audit
     U.S. Department of Education
     Office of Inspector General
     1999 Bryan Street, Suite 2630
     Dallas, Texas 75201-6817

     Re:          Audit Control #: ED-OIG/A06-C0033
                  Auditee:         State of California
                  Audit Period:    July 1, 2000 - July 31,2002

     Dear Ms. Demmel:

     This is the California Department of Education's (CDE) response to the Draft Audit Report
     on the Migrant Education Program, Control Number ED-OIG/A06-C0033.

     Recommendation No. 1.1. Monitor subgrantees to ensure funds are used for Priority for
     Services migratory children before funds are used for other migratory children.

     CDE Response:
     CDE's Coordinated Compliance Review Program for fiscal year 2003/2004 incorporates
     tests to ensure Priority for Services requirements are met. The tests include reviewing
     subgrantees' criteria for selecting migrant students to participate in the program, and
     comparing identified needs with services provided (see Attachment 1). Data will be
     maintained (see response to Recommendation No.l.3) to verify that Priority for Services
     migratory children received funding for services before other migratory children.

     Priority for Services were given to students under the sub granting categories who are
     failing, or most at risk of failing, to meet the state's challenging content standards and
     student performing standards, and whose education has been interrupted during the
     regular school year. The sub grants to the Local Education Agencies (LEA) were
     compatible with the required annual program application services described to best
     address the needs and service priorities from each sub granting category. In addition, CDE
     will issue a letter to the LEAs clarifying the sub grant definitions for Priority for Services.
Sherri Demmel                                                        Attachment

May 6, 2003
Page 2



Recommendation No.1.2. Provide a clear definition to all subgrantees of what
constitutes "at risk of failing" state standards and "whose education has been interrupted
during the regular school year."

CDE Response: CDE believes all sub grantees were provided guidance in identifying
students "at risk of failing" and "whose education has been interrupted during the regular
school year." The following methods have been used to define and monitor the
requirements of Section 1304 (d) of the Elementary and Secondary Education Act: 1)
guidance documents with these definitions are sent with the program application to
subgrantees (see Attachment 2); 2) CDE annually reviews the program descriptions
contained in the completed application; 3) CDE consultants provide ongoing technical
assistance in their Coordinated Compliance Reviews; 4) LEA recruiters verify certificates
of eligibility; 5) the state handbook provides federal guidance information.

In addition, CDE will provide sub grantees another more accurate and detailed definition
of Priority for Services migratory children, consistent with the state's interpretation, as
allowed under Section 1304(d) of the Elementary and Secondary Education Act.

Recommendation No.1.3. Establish procedures to identify and report to the Department
the number of Priority for Services migratory children served in California schools.

CDE Response: CDE's data management service, West ED, will use the academic
service data it currently receives from the regional offices to develop a reporting process
that identifies students meeting the federal criteria for Priority for Services.

The process will first identify those students who have moved during the school year and
who meet one of the other risk categories used in the Sub granting Report. Any record
that is a match will be displayed on the regional Migrant Student Information Network
web site to alert the region that the identified student should be targeted for service.

The second step in the process will identify all other students who have moved and are
failing or at risk of failing. This list of students will be displayed by region in a separate
table on the web site and will inform the region that these students may also be eligible
for Priority for Services. The region will be given an option of indicating whether the
student is 1) meeting standard, 2) failing, or 3) at-risk. The region will use academic,
attendance, and other records available at the local level to make this determination.
Sherri Demmel                                             Attachment

May 6, 2003
Page 3



Combined, the data will: 1) provide a total of students served under Section 1304 (d) for
Table C-6 of the Consolidated State Performance Report, 2) maintain detailed information
about student participation and program services for monitoring purposes. This process is
scheduled to be implemented by September of2003.

If you have any questions, please contact CDE's Audit Response Coordinator, Susan
Faresh at (916) 323-4124.




GAY
Chief eputy Superintendent of Public Instruction
          •
Compliance item
                                                         ------~=--~.~------
                                                         Review level/Guidance
                                                                                                                        ......---
                                                                                                               Examples of how to achieve compliance
                                                                                                                                                                Attachment 1

                                                                                                                                                                            C   NC            NIA
                                                                                                                                                                                                    I

                                                            How do you determine which migrant students          - Health services related to education
                                                            are most at risk academically?                       - Other educational services as required
                                                            Review the information about standards and            Disaggregated information on standards and                                            I
                                                            assessment results and confirm that such              assessment results is available.
                                                            information included in the district service
                                                            agreement is disaggregated by grade level for
                                                            migrant students.
                                                            Review a random sample of five current
                                                            district service agreements submitted to the
                                                            region and confirm that the information on
                                                            standards and assessment results is disaggre­
                                                            gated by grade level.                                                                                                             '-

                                                         Site

                                                            Compare services described in the service            The list of services provided to students is as
                                                            agreement with those offered by the school           indicated in the leanting plans and is related to
                                                            district and other categorical programs.             individual needs assessments.
                                                            Interview teachers and aides.                        Teachers and aides are knowledgeable of the
                                                            ASK:                                                 services to be provided as specified in the
                                                                                                                 service agreement.
                                                            How do you determine whether the migrant
                                                            student is receiving all the services for which




                                                                                                                                                                                Attachment

                                                            he/she is eligible?
                                                            What kinds of services are you obligated to
                                                            provide according to the service agreement?


II-M6 In providing services with funds
received under this part, each recipient of such
                                                         Region and District
                                                                                                                                                                          00[ '
funds shall give priority to migrant children              Select a random sample of ten migrant stu­            Procedures are established in writing to com­
                                                           dents.                                                pare student needs assessment with services
who are failing, or most at risk of failing, to
                                                                                                                 provided.
                                                                                                                                                                                               ,
meet the state's content standards and challeng­            Compare identified needs with services
ing state performance standards, and whose                  provided (needs assessment, individualized           The district has established, in writing, criteria
education has been interrupted during the                   leanting plans).                                     for selecting migrant students to participate in




                                                                                                                                                                                ~I
regular school year.                                        Review the district's established criteria for       the program.

(20 USC 1694[dJ)                                            selecting migrant students to participate in the
                                                            program, including written or oral tests.

                                                                                                                                                                                :::T
Coordinated Compliance Review Training Guide 2003-2004                                                                                                                Migrant   3
                                                                                                                                                                                ~ I
                                                                                                                                                                                ~
                                                                                          Attachment 2
California Department of Education
Revised 01/06/02
                                                        Attachment


    GUIDANCE FOR COMPLETING MIGRANT EDUCATION DISTRICT SERVICE
               AGREEMENTIDIRECT FUNDED APPLICATION

All Districts are required to submit the following documents:

Page 1: Cover Page
Enter Region number and name of district.


Page 2: Signature Page
Basic information about the District is to be provided. Be sure to check all boxes that apply.
The signature page is not complete if the District SuperintendentlDesignee or District Advisory
Council PresidentlDesignee signatures are not provided.

Note that a SuperintendentlDesignee and the District Advisory Council PresidentlDesignee
signature implies that they have received a copy of the Agreement and Assurances, have
reviewed them, and have had the opportunity to provide consultation on the District Service
Agreement. The original signature should be kept on file at the Regional Office.

Page 3: District Demographic Profile
On Page 3 information is to be provided on the number of eligible migrant students at each
school at each grade level. These numbers should be determined according to valid Certificates
of Eligibility (COE's). Special notations to be made include a YESINO in the box under "SW"
ifthe school is implementing a Schoolwide Program and under "IIUSPIPI" if the school is an
identified IIUSP school or a Program Improvement (PI) school. The number of students in
"ungraded programs" such as special education should be noted in the "UG" column, and the
number of "out-of-school youth" in the "OSY" column.

Note that students reported under "UG" or "OSY" should not be counted in other grade level
categories on this page.

Page 4: Staffing Profile
Information about how your program is staffed is requested on Page 4, Staffing Profile. It is
important to differentiate between staff who are fully funded by the Migrant Education Program
and those who are multi funded.

 For multi-funded positions, indicate the funding sources and the % of the individual's time
 supported from each source. An indication is also needed about how records are kept for multi
 funded positions.

 Page 5: Standards and Assessments Data
 On Page 5 provide the specific data that indicate: (1) grade levels; (2) number of migrant
 students at each grade level; (3) the official count of migrant ELLILEP students at each grade
 level; (4) the total number of migrant students assessed using any measures in Reading, Math
 and Language Arts classes at each grade level; (5) the number of migrant students assessed in
 other languages (e.g. using an assessment like SABE or APRENDA); (6) the number of migrant

                                                                                                  2
California Department of Education
Revised 01 /06/02
                                                              Attachment

students meeting standards according to proficiency levels established by the district for each
grade level.

Note: Information on Page 5 should reflect the student populations identified on Page 3
District Demographics. The goal is 100% assessment of Migrant students with some type of
measure within the current school year. The District should assess migrant students in K-12.
Out-of-School Youth and preschool migrant students may be assessed collaboratively·by the
district and other organizational agencies.

Page 6: Standards and Assessment Narrative
This page should summarize the data provided on Page 5, as well as information from other
existing data. The summary should be written in a manner that clearly delineates the students
that have been found to be most at risk and, therefore, in need of supplemental services. The
priority of services should be based on students whose education has been interrupted
during the regular school year and are failing or at risk of failing to meet state standards.
In part one, an analysis for each subgroup - Pre-K, K-12, and Out of School Youth should be
provided. Include the number of High School graduates from previous year.

In part two, explain how the issue of mobility is being addressed (e.g. mobility patterns and
mobility rate). In general, mobile students are the least likely to be included in assessment
processes. What is the district doing to ensure the needs of the highly mobile student are fully
addressed?

Page 7: MEP Regular Year CRY) Objectives

Under Column #1, 2002-2003 Evaluation please list all oflast year's objectives as stated in the
2002-2003 District Service Agreement. Under the same column include a yes or no to state if
the objective was met or not. Under Accomplishments/Progress made state the evidence
gathered (test data, pre/post assessment, etc.) to determine if the objective was met, or describe
the progress made. Under column #2, Revisions for the 2003-2004 Plan include a description
of modified or new measurable objectives as appropriate. If an entirely new objective is added
to this column additional information is required for each activity: (I) Numbers of schools
served; (2) Number Served/Grade Level; (3) Total Days Offered; (4) staffing (Number and
Positions) and (5) BeginninglEnding Dates.

Page 8: MEP Summer //ntersession Objectives

Under Column #1, 2002-2003 Evaluation please list all oflast year's objectives as stated in the
2002-2003 District Service Agreement. Under the same column include a yes or no to state if
the objective was met or not. Under Accomplishments/Progress made state the evidence
gathered (test data, pre/post assessment, etc.) to determine if the objective was met, or describe
the progress made. Under column #2, Revisions for the 2003-2004 Plan include a description
of modified or new measurable objectives as appropriate. If an entirely new objective is added
to this column additional information is required for each activity: (I) Numbers of schools
served; (2) Number Served/Grade Level; (3) Total Days Offered; (4) stafflllg (Number and
Positions) and (5) BeginninglEnding Dates.


                                                                                                   3
                          REPORT DISTRIBUTION LIST 

                         CONTROL NO. ED-OIG/A06-C0033 


Auditee                                             ED Action Official

Mr. Jack O’Connell                                  Acting Assistant Secretary
State Superintendent of Public Instruction          Office of Elementary and
California Department of Education                  Secondary Education
1430 N Street
Sacramento, California 95814

                            Other ED Officials/Staff (electronic copy)

Delores Warner                                      Jack Martin
Audit Liaison Officer                               Chief Financial Officer

Philip H. Rosenfelt                                 Clay Boothby, Acting DAS
Office of General Counsel                           Legislation and Congressional Affairs

William D. Hansen                                   Laurie M. Rich, AS
Deputy Secretary                                    Intergovernmental and Interagency Affairs

John Danielson                                      Michelle Douglas and Carolyn Adams
Chief of Staff                                      OGC (Correspondence Control)

John Gibbons                                        L’Wanda Rosemond
Director, Communications                            General Operations Team, OIG

                                                    Charles Miller
                                                    Post Audit Group, OCFO

                                                    Headquarters and Regional Audit and
                                                    Investigation Managers
